Nos. 21-5592 & 21A33

IN THE

Supreme Court of the United States
JOHN HENRY RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit,
and Application for Stay of Execution
PROOF OF SERVICE
____________________
I hereby certify that on the 8th day of September, 2021, a copy of
Respondent’s Brief in Opposition to Petition for a Writ of Certiorari
was sent by electronic mail to: seth@kretzerfirm.com. A hard copy of same was
mailed, postage prepaid, to Seth Kretzer. All parties required to be served have
been served. I am a member of the Bar of this Court.
s/ Jennifer Wren Morris
JENNIFER WREN MORRIS
Assistant Attorney General
Criminal Appeals Division
P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
Counsel for Respondent

